March 2, 2021
By First-Class Mail
and Electronic Filing
The Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Attn: Danny Bickell, Esq.
Re:

Ashlyn Hoggard v. Ron Rhodes, et al., No. 20-1066

Dear Mr. Harris:
As counsel of record for respondents Ron Rhodes, Tim Langford, Niel
Crowson, Stacy Crawford, Price C. Gardner, William Stripling, and Martha Spack
(all Arkansas State University officials or members of the University Board of
Trustees), I am writing to grant blanket consent to any person or entity for the filing
of an amicus curiae brief in support of either or neither party at the certiorari stage in
the above-referenced cases, so long as any such filing complies with this Court’s rules.
If you have any questions, please call me at (202) 326-7951.
Very truly yours,

David C. Frederick
Counsel of Record for Respondents
cc:

Counsel of Record for Petitioner

